Supreme Court, U.S,
FILED

JUL 1 2 2021
OFFICE OF THE CLERK

No.
IN THE
SUPREME COURT OF THE UNITED STATES
JAMES TOLLE,
Petitioner/Plaintiff,
v.
ROCKWELL COLLINS CONTROL TECHNOLOGIES, INC., COLLINS
AEROSPACE /d/b/a Rockwell Collins Control Technologies, Inc., ROCKWELL
COLLINS CONTROL TECHNOLOGIES, INC. d/b/a Rockwell Collins, Inc.,
ROCKWELL COLLINS, INC., COLLINS AEROSPACE d/b/a Rockwell
Collins, Inc., ROCKWELL COLLINS CONTROL TECHNOLOGIES, INC. /d/b/a
United Technologies Corporation, ROCKWELL COLLINS, INC. /d/b/a United
Technologies Corporation, COLLINS AEROSPACE /d/b/a United Technologies
Corporation, and UNITED TECHNOLOGIES CORPORATION
Respondents/Defendants.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
PETITION FOR A WRIT OF CERTIORART
James Tolle
prose
11171 Soldiers Court
Manassas, VA 20109
(703) 232-9970
jptolle@verisystem.net

Julie Loring
Seyfarth Shaw LLP
1075 Peachtree Street, N. E., Suite 2500
Atlanta, GA 30309-3958
404-885-1500
jIoring@seyfarth.com

RECEIVED
JUL 1 *1 2021

QUESTIONS PRESENTED
I.

Without any indication from the District Court’s Opinion that it found a defect in

Plaintiff’s pleadings or factual allegations of his Complaint, the District Court failed to follow
the pleading standards required by this Court, including multiple instances of ignoring or
refusing to provide a presumption of truth to Plaintiff’s multiple, detailed factual allegations and
related references to evidence from public sources which support Plaintiff’s claims. The
defiance of the lower court to respect this Court’s precedents and follow the pleading standards
of this Court, which was affirmed by the Appellate Court without comment, raises the following
questions concerning the District Court’s Rule 12(b)(6) analysis and dismissal.
a)

Did the District Court err in finding, without explanation, that “there is no

indication that the Gay Pride flag is associated with such animus” (Memorandum Opinion,
Appendix A, note 4) even though the factual allegations in Plaintiff’s Complaint provide
evidence of animus if taken as true during a Rule 12(b)(6) review?
b)

Did the District Court defy this Court’s precedent in Neitzke v. William, 490 U.S.

319, 327 (1989) when it dismissed Plaintiff’s Complaint “based on a judge’s disbelief of a
complaint’s factual allegations” by ignoring Plaintiff’s ample factual allegations showing there is
some indication that the Gay Pride flag is associated with animus towards Christians in order to
find "there is no indication that the Gay Pride flag is associated with such animus”
(Memorandum Opinion, Appendix A, note 4)?
c)

Did the District Court err by finding “nor did [the flag]...unreasonably interfere

with plaintiff’s work performance” (Memorandum Opinion, Appendix A, p. 8) under
Rule 12(b)(6) when Plaintiffs Complaint did include factual allegations which, if taken as true,

ii

show that the display of the offensive flag did interfere with Plaintiff’s workperformance?
d)

Did the District Court err in finding under Rule 12(b)(6) that Plaintiff did not

aflege that he had an employment requirement to work under the offensive flag when Plaintiff’s
Complaint included factual allegations showing that his work requirements forced him to see the
flag displayed in front of the work entrance and that the employer offered no accommodation to
alter the requirements of his work which forced him to see the flag multiple times each day?
e)

Did the District Court err in finding that Plaintiff faced no discipline following his

request for an accommodation under Rule 12(b)(6) when Plaintiff’s Complaint provides factual
allegations showing constructive discharge and that Plaintiff received threats of termination
following his complaint?

0

Did the District Court err by finding that Plaintiff’s Complaint did not sufficiently

allege that a group of persons was impacted due to religion under Rule 12(b)(6) when Plaintiff’s
Complaint included factual allegations showing disparate impact towards Christians as a group
and evidence of another Christian in the workplace confirming this?
g)

Did the District Court err in finding no adverse action towards Plaintiff by the

employer under Rule 12(b)(6) when Plaintiff’s Complaint includes factual allegations showing
adverse actions after his complaint based on hostile working conditions and threats and/or by
showing a constructive discharge?
II.

The District Court based its constructive discharge analysis on an intolerability

standard using a reasonable person in Plaintiff’s position without concern for whether the
reasonable person used in its analysis is religious or not. The following questions are related to
the District Court’s approach which was affirmed by the Appellate Court without comment,
a)

Is the reasonable person test for intolerability under the constructive discharge

doctrine of Pennsylvania State Police v. Suders, 542 U.S. 129,124 S.Ct 2342,159 L.Ed.2d 204
----Hi

(2004) (hereinafter, “Suders”) and Green v. Brennan, 136 S. Ct. 1769,1776-77 (2016)
(hereinafter, “Green”) compatible and consistent with the test based on a “person in Plaintiff’s
position” from Oncale v. Sundowner Offshore Servs., Inc., 523 U.S. 75,81 (1998) (hereinafter
“Oncale”)? Failure of this Court to enforce a consistent standard for a reasonable person test for
constructive discharge and Title VII discrimination cases will cause confusion and likely lead to
uneven application of the law in these cases.
b)

Does the reasonable person test in Oncale require that a “person in Plaintiff’s

position” be applied to the constructive discharge analysis for religious accommodation and
should the reasonable person test in that case be based on the perspective of a religious person
who shares the faith of a devout Plaintiff? Failure of this Court to find error in how intolerability
in Petitioner’s case was based on an average employee who does not share Petitioner’s religious
beliefs or objections to the offensive object will strip the reasonable person test from Suders,
Green, and Oncale of its ability to find other reasonably offensive conditions to be intolerable for
devoutly religious persons (for example, when a devout Muslim has to remove a head scarf; or
when a devout Jewish person is only offered pork-based employer-provided meals). If the
Court’s constructive discharge criteria can find intolerability for devout Muslims and Jews, it
should be similarly applied to find intolerability for devout Christians as in Plaintiff’s and other
cases.
HI.

The District Court relies on Hoyle v. Freightliner, LLC, 650 F.3d 321, 337 (4th

Cir. 2011) (hereinafter, “Hoyle”), which quotes Burlington Indus., Inc. v. Ellerth, 524 U.S. 742,
761 (1998) (hereinafter “Ellerth”), but the U. S. Court of Appeals for the Fourth Circuit in Hoyle
erroneously equates an “adverse action” to the Supreme Court’s "tangible employment action”
(Ellerth at 761) considered for "resolution of the vicarious [employer] liability issue we consider

iv

here” (Ellerth at 761) and the District Court finds no adverse action if the work conditions
caused by the employer did not have economic impact on Plaintiff based on this. Petitioner
believes that employer liability is not in question in the present case and the District Court’s use
of Hoyle’s definition of adverse action based on Ellerth’s tangible employment action is too
narrow for analyzing Title VII discrimination in his case. This Court’s guidance in Meritor
Savings Bank, FSB v. Vmson All U.S. 57 (1986), hereinafter “Meritor”, interprets the
"conditions” of employment more broadly than just economic and states: "the language of Title
VII is not limited to ‘economic’ or ‘tangible’ discrimination” (Meritor at 64). Was it an error
for the District Court to base its analysis of the change in Plaintiff’s working conditions after his
complaints to the employer only on economic impact and to ignore non-economic changes in the
conditions of Plaintiff’s work environment in its findings concerning adverse actions by
Plaintiff’s employer?
IV.

Can the District Court ignore this Court’s precedent in Carter v. Stanton, 405 U.S.

669, 671 (1972) and deny Plaintiff the due process protections of Rule112(d) or Rule 56 when
considering new matter during a Rule 12(b)(6) review?
V.

Is a District Court required to give a party notice that it is considering and not

excluding new matter and an opportunity to oppose it prior to ruling against the party, even if the
party may know that the court has been presented with the new matter?

1 Any “Rule” referenced in this instant Petition is referring to a rule from the current Federal
Rules of Civil Procedure, unless otherwise indicated.
v

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Petitioner Tolle states that he has no parent
corporation in this action and no publicly held corporation has an interest with Petitioner Tolle in
this action.

VI

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

vn

LIST OF ALL DIRECTLY RELATED PROCEEDINGS
Tolle v. Rockwell Collins Control Techs., l:20-cv-00174 (E.D. Va. Jun. 18, 2020),
granting Defendants’ Motion to Dismiss.

James Tolle v. Rockwell Collins, Number 20-1768, U. S. Court of Appeals for the Fourth
Circuit. Unpublished Opinion of Panel date May 10,2021, affirming District Court’s dismissal,
per curiam.

viii

TABLE OF CONTENTS

ii

Questions Presented
Corporate Disclosure Statement

.vi

List of Parties

,vii

List of All Directly Related Proceedings

.viii
,..x

Tkble of Authorities
Opinions Below (Citations of Orders Entered in this Case)

1

Jurisdiction

,2

Constitutional Provisions and Statutes Involved in this Case

.3

Statement.

,3
7

Reasons for Granting the Petition

36

Conclusion

INDEX TO APPENDICES
Appendix A

District Court’s Order and Memorandum Opinion of June 18,2020

Appendix B

............ U. S. Court of Appeals for the Fourth Circuit
Unpublished Opinion and Judgment of May 10, 2021

Appendix C.

.Excerpts from Plaintiff’s Complaint of February 19, 2020

Appendix D

.................Excerpts from the Record in the Lower Courts

ix

TABLE OF AUTHORITIES CITED
Federal Cases
Anderson v. Liberty Lobby, Inc.
477 U.S. 242,106 S. Ct. 2505 (1986)

.Footnote 11

Ashcroft v. Iqbal
556 U.S. 662,129 S. Ct. 1937 (2009)

.6-14, 36-37, Footnote 7

Burlington Indus., Inc. v. Ellerth
524 U.S. 742 (1998)..........................

,iv-v, 22

Carter v. Ball
33 F.3d 450 (4th Cir. 1994)

18

Carter v. Stanton
405 U.S. 669 (1972)

.v, 25-26

Celotex Corp. v. Catrett
477 U.S. 317 (1986)

,26

Chambers v. Florida
309 U.S. 227 (1940)

.Footnote 17

Coleman v. Maryland Court ofAppeals
626 F.3d 187 (4th Cir. 2010).........

.35

Coleman v. Court of Appeals of Maryland
566 U.S. 30 (2012).....................

,35

Dale v. Hahn
440 F.2d 633 (2 Cir. 1971)

29

Dayco Corp. v. Goodyear Tire Rubber Co.

523 F.2d 389 (6th Cir. 1975)................................................

Footnotes 11,14

Equal Employment Opportunity Commission v. 704 HTL Operating, LLC
979 F. Supp. 2D 1220 (D.N.M. 2013).........................................

,20

Farah v. A-l Careers
No. 12-2692-SAC (D. Kan. Nov. 20, 2013)

20

Fayetteville Investors v. Commercial Builders
936 F.2d 1462 (4th Cir. 1991).............

•Footnote 11

x

Fonte v. Bd, of Mgers. Of Cont. Towers Condo
848 F.2d 24 (2d Cir. 1988)..................

Footnote 10

Glob. Network Commc'ns v. City of N.Y
458 F.3d 150 (2d Cir. 2006).................

Footnote 11

Green v. Brennan
136 S. Ct. 1769 (2016)

.iv, 4-5, 9,15-19, 39, Footnote 8

Harris v. Forklift Sys., Inc.
510 U.S. 17 (1993)

17, 33

Hoyle v. Freightliner, LLC
650 F.3d 321 (4th Cir. 2011)

•iv-v, 21-22

Interco Inc. v. National Sur. Corp.
900 F.2d 1264 (8th Cir. 1990)

Footnotes 11, 14

International Shortstop, Inc. v. Rally's
939 F.2d 1257 (5th Cir. 1991).

Footnote 11

James v. Booz-Allen Hamilton, Inc.
368 F.3d 371 (4th Cir. 2004)

Footnote 9

Los Angeles Dept, of Water and Power v. Manhart
435 U.S. 702 (1978)...................................
Meritor Savings Bank, FSB v. Vinson
477 U.S. 57(1986)................

.22
.v, 13, 22-23

Miller v. Glanz
948 F.2d 1562 (10th Cir. 1991)

Footnotes 11,14

Neitzke v. Williams
490 U.S. 319 (1989).............................................

ii, 14

Ohio v. Peterson, Lowry, Rail, Barber & Ross
585 F.2d 454 (10th Cir. 1978)..............................

Footnotes 11,14

Oncale v. Sundowner Offshore Servs, Inc.
523 U.S. 75(1998)..............................................

iv, 17-18

Pennsylvania State Police v. Suders
542 U.S. 129 S.Ct. 2342,159 L.Ed.2d 204 (2004)

.iii-iv, 4, 9,15-17,39

xi

Peterson v. Hewlett-Packard
358 F.3d 599 (9th Cir. 2004)

24-25

Plante v. Shivar
540 F.2d 1233 (4th Cir. 1976)

29

Radich v. Goode
886 F.2d 1391 (3d Cir. 1989).......................................

Footnote 11

Rivera v. Centro
575 F.3d 10 (1st Cir. 2009).........................................

Footnotes 11,14

Rogers v. Equal Employment Opportunity Com'n
454 F.2d 234 (5th Cir. 1972).......................................

23

Ross v. Communications Satellite Corp.
759 F.2d 355 (4th Cir. 1985).......................................

Footnote 9

Sartor v. Arkansas Gas Corp.

321 U.S. 620 (1944)....................................................

26, 28

US. Equal Emp’t Opportunity Comm’n v. Consol Energy, Inc.
860 F.3d 131 (4th Cir. 2017)......................................

18-21, Footnote 8

United States v. Fisher-Otis Company, Inc.
496 F.2d 1146 (10th Cir. 1974)....................................

Footnote 13

Vbn Gunten v. Maryland
243 F.3d 858 (4th Cir. 2001)...

21, Footnote 9

Vlfeinberger v. Wiesenfeld
420 U.S. 636 (1975)................

Footnote 17

Wikimedia Found v. Nat’l Sec. Agency
857 F.3d 193 (4th Cir. 2017)...

Footnote 7

Winston & Strawn, LLP v. McLean
843 F.3d 503 (D.C. Cir. 2016)

Footnote 11

Ytck Wo v. Hopkins
118 U.S. 356 (1886)

Footnote 17

Young v. Southwestern Savings and Loan Assoc.
509 F.2d 140 (5th Cir. 1975)..................

xii

19-21

United States Constitution
2-3, 5, 28, 37-38,40, Footnotes 13,17

Fifth Amendment,

Rules
Fed. R. Civ. R 12

ii-iil, v, 2-3, 5-10,13-14, 24-32, 37-38, Footnotes 10-14

Fed. R. Civ. R 56

,v, 5, 9, 25-32, Footnotes 11-14

xm —

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to review the judgment and orders
below.

OPINIONS BELOW
(CITATIONS OF ORDERS ENTERED IN THE CASE)
1.

On or around February 19, 2020, Petitioner filed a complaint with the United

States District Court for the Eastern District of Virginia after investigation of his charges and a
Notice of Right to sue by the Equal Employment Opportunity Commission. Petitioner’s
Complaint alleged claims of religious discrimination and harassment under 42 U.S.C. § 2000e2(a)(1) and § 2000e-2(m) and an unlawful employment practice which causes a disparate impact
on the basis of religion in violation of 42 U.S.C. § 2000e-2(k), and/or § 2000e-2(m).
2.

On June 18, 2020, the District Court entered an Order and Memorandum Opinion

(Appendix A) (collectively, "DISMISSAL”; “District Court’s Opinion” or “Opinion” for
Memorandum Opinion) dismissing Petitioner’s case with prejudice.
3.

Petitioner’s Appeal to the U. S. Court of Appeals for the Fourth Circuit was

docketed on July 14, 2020 and the Appellate Court’s Panel issued an unpublished Opinion
affiraiing the District Court’s DISMISSAL with their Judgment on May 10, 2021 (Appendix B).
4.

Petitioner filed a timely Petition for Rehearing or Rehearing En Banc with the

Appellate Court on May 18, 2021, which was denied by the Panel on June 7, 2021. Petitioner is
seeking a Writ of Certiorari based on the Appellate Court’s Unpublished Opinion of May 10,
2021 and the District Court errors it affirmed.
‘T

JURISDICTION
5.

The District Court entered a Final Order dismissing Petitioner’s Complaint on

June 18, 2020. Petitioner appealed to the U. S. Court of Appeals for the Fourth Circuit on July
14, 2020. The Appellate Court issued a Panel Opinion on May 10, 2021, which affirmed the
lower court’s dismissal. Petitioner is seeking a Writ of Certiorari to a United States Court of
Appeals pursuant to 28 USC § 1254(1) and Supreme Court Rule 10 because the District Court’s
Opinion, which the Appellate Court affirmed without comment, contains substantial errors in law
on important matters which are in conflict with the precedent of this Court or with other U. S.
Courts of Appeal and serve to deny Petitioner’s rights to due process under the rules of civil
procedure and the Fifth Amendment of the U. S. Constitution. The District Court’s review under
Rule 12(b)(6) and the dismissal affirmed by the Appellate Court have departed so far from the
accepted and usual course of judicial proceedings according to this Court’s pleading standard as
to demand a review by the Court and an exercise of this Court’s supervisory powers. Failure of
this Court to address these errors will create a split in the Courts of Appeal, weaken this Court’s
precedents, strike at the rule of law and deprive citizens in the Fourth Circuit of fundamental due
process rights that citizens in other Circuits currently enjoy under the pleading standards of this
Court and the rules of civil procedure.
6.

Per Supreme Court Rule 13.1, a Petition for Writ of Certiorari is timely filed

within 90 days after the entry of judgment by the lower court. According to Supreme Court Rule
13,3, the time to file the Petition runs from the date of a denial of a timely filed request for
rehearing. The instant Petition is timely filed under these rules because the Petition is filed less
than 90 days from the denial of Petitioner’s request for rehearing in the Court of Appeals on
June 7,2021.

2

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED IN THE CASE
7.

The constitutional and statutes relied on in this Petition are as follows.

a)

The Fifth Amendment to the United States Constitution, which includes

protections for due process and equal protection under law, provides as follows:
“No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor shall private property be taken
for public use, without just compensation.”
STATEMENT
8.

This case involves errors in the District Court which included serious departures

by the District Court from this Court’s pleading standard for a Rule 12(b)(6) review, as well as
errors involving other precedents of this Court and related constitutional protections for due
process. The District Court’s Rule 12(b)(6) analysis of Plaintiff’s workplace harassment claim is
particularly egregious because the District Court refused to consider multiple, detailed factual
allegations with citations to public sources which support Plaintiff’s claims and, without finding
any error in Plaintiff’s pleadings, dismissed Plaintiff’s claim based on the District Court’s own
conclusory statement that “there is no indication that the Gay Pride flag is associated with such
animus” (Memorandum Opinion, Appendix A, note 4). Without any other evidence, the District
Court’s failure to take Plaintiff’s factual allegations as true and to rely on a contrary,
unsubstantiated assertion by the lower court appears to be a rejection of this Court’s pleading
standard in order to insert the lower court’s own biased view of the Gay Pride flag into its Rule
12(b)(6) analysis, which served to foreclose on Plaintiff’s claims. The background and statement
of position which supports Petitioner ’s request for Certiorari based on these errors is as follows.

3

____ __9.___ Plaintiff worked as a statutory employee for Rockwell Collins Controls
Technologies (hereinafter “RCCT” or “Rockwell Collins”) until October, 2019.
10.

In or around June 2019, Rockwell Collins flew the Gay Pride flag on the flag pole

over all or almost all of its locations for 30 days, which included the Sterling location of RCCT
where Plaintiff had worked continuously from on or around November, 2018, until his departure
in or around October, 2019.
11.

During the months of June through September, 2019, Plaintiff complained to

RCCT management concerning how the flag was an object which Petitioner found offensive
based on his religious practice and belief and was creating a hostile work environment which
affected and/or altered the conditions of his work; during this time, Plaintiff requested an
accommodation for his religious practices. RCCT offered Plaintiff no reasonable
accommodation and never demonstrated how an accommodation would cause any undue
hardship to the conduct of RCCT’s business. The employer’s refusal to offer Plaintiff an
accommodation and the employer’s promise to continue display of the offensive object every
year for the month of June led to Plaintiff believing that he was being forced to either abandon
his religious practice or be subject to management’s threats of discipline and termination if he
should stay employed. Petitioner is a devout Christian who is unwilling to compromise his
religious beliefs in order to satisfy an employer’s requirements and having to choose between
being faithful to his religious beliefs or keeping a job where he was threatened with discipline or
termination if he did not alter his religious practice became so intolerable for Petitioner that he
felt that he had no other choice but to leave employment in October, 2019. If the Court grants
Certiorari in Petitioner’s case, it will have an opportunity to determine how the law under the
precedents in Pennsylvania State Police v. Suders, 542 U.S. 129,124 S.Ct. 2342, 159 L.Ed.2d
204 (2004) (hereinafter, “Suders”) and Green v. Brennan, 136 S. Ct. 1769,1776-77 (2016)

4

(hereinafter, JIGreen”) address constructive discharge for situations where an employer forces a
devout employee to alter his or her religious practice to continue working. Certiorari will also
allow the Court to mitigate the split that is developing in religious accommodation law among
the Circuits for these situations.
12.

Prior to Petitioner’s end of employment, on or around September 28, 2019,

Petitioner reported RCCT’s discriminatory actions against him to the Equal Employment
Opportunity Commission (hereinafter, “EEOC”) and filed charges on or around November 16,
2019. The EEOC issued a Notice of Right to Sue letter on or around December 4, 2019.
13.

On or around February 19, 2020, Petitioner filed a complaint with the United

States District Court for the Eastern District of Virginia, which alleged claims of religious
discrimination and harassment under 42 U.S.C. § 2000e-2(a)(l) and § 2000e-2(m) and an
unlawful employment practice which causes a disparate impact on the basis of religion in
violation of 42 U.S.C. § 2000e-2(k), and/or § 2000e-2(m).
14.

Defendants filed a Motion to Dismiss Petitioner’s Complaint on May 4,2020

(hereinafter, “motion”) and a Reply in Support of their Motion to Dismiss (hereinafter,
“REPLY”) on May 19, 2020, alleging new facts in their REPLY. Whether Petitioner received
due process after the District Court decided to rely on the new matter in Defendants’ REPLY
rather than excluding it and either failed to convert Defendants’ Rule 12(b)(6) motion to
summary judgment according to Rule 12(d) or failed to provide Plaintiff notice and procedural
protections under Rules 12(d) and 56 after conversion are important questions concerning due
process raised in this Petition. Granting Petitioner’s request for Certiorari will allow the Court to
address the violation of due process rights when lower courts in the Fourth Circuit ignore or fail
to properly follow the rules of civil procedure and deny Fifth Amendment due process.
15.

On June 18, 2020, the District Court entered an Order and Memorandum of

5

.Opinion.(Appendix A) (collectively. “DISMISSAL”) dismissing Petitioner’s case with prejudice.
The District Court’s Memorandum Opinion which included analysis under Rule 12(b)(6) did not
find any defect in the pleading of the factual allegations of Plaintiff’s Complaint but ignored or
refused to take as true several of Plaintiff’s relevant factual allegations in making its
determination that Plaintiff failed to state a claim. One example of this is that despite Plaintiff’s
Complaint providing multiple, detailed, well-pleaded factual allegations concerning how the
history of the Gay Pride flag is related to animus towards Christians (Appendix C, HH52(a), 75,
notes 5-6), the District Court ignored all of these factual allegations and seems to have inserted
its own biased opinion about the Gay Pride flag into its Rule 12(b)(6) analysis instead. In
affirming this action, the Appellate Court directly contradicts the pleading standards established
by this Court in Ashcroft v. Iqbal, 556 U.S. 662 (2009) and indicates that lower courts in the
Fourth Circuit can defy this Court’s precedent and the rule of law to redefine the judicial process
with seeming impunity. If this Court is concerned with ensuring due process and enforcement of
its precedents concerning the proper standard of review during the pleading stage, it should grant
Petitioner’s request for Certiorari and review how the Appellate Court has affirmed such
seemingly blatant disregard for the Court’s guidance by the lower courts in the Fourth Circuit
16.

The Petitioner’s Notice of Appeal was filed on July 7, 2020, under Fed. R. App. P.

3 in order to appeal the District Court’s final decision within 30 days after entry of the District
Court’s Order. Petitioner’s Appeal to the U. S. Court of Appeals for the Fourth Circuit was
docketed on July 14, 2020 and the Appeal was fully briefed on August 22, 2020. The Appellate
Court’s Panel issued an unpublished Opinion affirming the District Court’s dismissal with
Judgment on May 10,2021 (Appendix B).
17.

Petitioner filed a timely Petition for Rehearing or Rehearing En Banc with the

Appellate Court on May 18, 2021, which was denied at the direction of the Panel on

6 '

June 7, 2021, without comment. Petitioner is seeking a Writ of Certiorari based on the Appellate
Court’s Unpublished Opinion of May 10, 2021 and the District Court errors it affirmed.
18.

The basis for federal jurisdiction over Petitioner’s Complaint in the U. S. District

Court for the Eastern District of Virginia is as follows:
a)

Venue is proper in this judicial district pursuant to 28 U.S.C. § 1391(b), insofar as

the events and/or omissions giving rise to Tolle’s claims occurred in this judicial district, and
pursuant to 42 U.S.C. § 2000e-5, insofar as Rockwell Collins maintains a place of business in,
and the unfair employment practice was committed in, this judicial district.

REASONS FOR GRANTING THE PETITION
19.

Petitioner believes that there are three substantial errors in law which urgently

need to be addressed by this Court in order to avoid fundamental violations of law and
Constitutional rights in the Fourth Circuit or before a split on important issues is created between
the Courts of Appeal. The most egregious error affirmed by the Appellate Court is the District
Court’s abandonment of this Court’s pleading standard since Ashcroft v. Iqbal, 556 U.S. 662,129
S. Ct. 1937 (2009) (hereinafter “Iqbal ”) under Rule 12(b)(6), striking at the rule of law and the
availability of due process and equal protection during the pleading stage. Even though the
District Court found no defect in the pleading of the factual allegations of Plaintiff’s Complaint
during its Rule 12(b)(6) review and despite the fact that Plaintiff’s Complaint provides multiple,
detailed, well-pleaded factual allegations (citing substantiating evidence) concerning how the
history of the Gay Pride flag is related to animus towards Christians, the District Court’s Opinion
ignored all of these factual allegations and evidence in order to make a finding about the Gay
Ride flag which, without any other explanation, seems to align with the District Court’s biased
opinion about the Gay Pride flag and unfairly prejudices Plaintiff’s claims. This one example of

7

the District Court’s defiance of the Court’s pleading standard, affirmed by the Appellate Court, is
such a corruption of the judicial process defined by this Court that the Court should grant
Certiorari based on this error in law, if for no other reason. Without Certiorari or any other
action by the Court to review the District Court’s errors in its Rule 12(b)(6) analysis, or at least
this most serious instance, the Court will allow lower courts in the Fourth Circuit to repeat this
practice and ignore well-pleaded factual allegations of any complaint in the future in order to
achieve the result a judge wants, with seeming impunity based on the Appellate Court’s
affirmation in Petitioner’s case. The Court’s pleading standard since Iqbal has struck a balance
between providing all plaintiff’s access to the Federal courts and providing some reasonable
limitations on the claims brought to trial. However, failing to protect the pleading standard under
Iqbal in Petitioner’s case will set the stage for lower courts in the Fourth Circuit to have the
latitude to ignore any factual allegation they do not like and thereby achieve any outcome of
pleading that a lower court may want. If a Federal court wants to put its thumb on the scales of
justice for whatever reason, it should not be allowed to during the pleading stage, where
plaintiffs have no jury or rules of evidence to rely on for a fair hearing. By choosing to ignore
substantial, relevant and specific factual allegations in Plaintiff’s Complaint in order to achieve
the outcome the District Court seems to have preferred for the Gay Pride flag, the pleading
standard seems to be under assault in the Fourth Circuit and the Appellate Court’s affirmation of
this action by the lower court will not ensure it survives. In the end, only this Court will be able
to rescue the pleading standard in the Fourth Circuit and Petitioner hopes that the Court will use
Petitioner’s instant request to grant Certiorari for this purpose, before the judicial process based
on the pleading standard is re-defined and the gates to justice at the pleading stage are closed by
die courts in the Fourth Circuit to those plaintiffs with whom the lower courts do not agree.
20.

The errors in law committed in the District Court and affirmed by the Appellate

8

Court directly conflict with this Court’s precedents. First, the multiple examples that Petitioner
provides (see Part I) show how the District Court’s Rule 12(b)(6) analysis is contrary to Iqbal by
ignoring multiple, key factual allegations in Plaintiff’s Complaint without reason and how the
District Court seemingly did this in order to rely on its own bias or achieve the outcome it
preferred, notwithstanding what is actually pleaded in Plaintiff’s Complaint. This includes the
most egregious example already mentioned of how the District Court seems to ignore multiple,
substantial factual allegations and evidence concerning how the Gay Pride flag has become a
symbol of “discriminatory behavior towards Christians” (Appendix C, H75; see also Appendix C,
1152(a) and note 5) to reach a finding “there is no indication that the Gay Pride flag is associated
with such animus”2. Second, the District Court’s Opinion in Petitioner’s case includes an
important question concerning the interpretation of the reasonable person test from this Court’s
constructive discharge doctrine from Suders and Green when the employee is a devout religious
person and the employer has refused to provide an accommodation to the employee (see Part II).
The District Court Opinion which was affirmed by the Appellate Court and does not consider
religious devotion as part of the reasonable person in the employee’s position is at odds with
courts in other Circuits which are recognizing that a reasonable person test for intolerability
involving a failure to accommodate is different than other constructive discharge cases. Lastly,
Petitioner raises multiple issues in how the District Court relied on new matter which it did not
exclude, leading to errors in law or violations of due process under Rules 12(d) and 56 (see Part
III). If the Court does not grant Certiorari to review these errors, it will allow this Court’s
pleading standard for Rule 12(b)(6) reviews to be blatantly defied in the Fourth Circuit, allow
confusion on the constructive discharge doctrine to continue, and ignore the breakdown of the
rule of law and violations of due process under Rules 12(d) and 56 in the Fourth Circuit.
2 Memorandum Opinion, Appendix A, note 4.
9

21.

Petitioner also believes that the District Court abused its discretion by denying

Plaintiff’s request to amend his Complaint with matter concerning facts which are material to the
District Court’s ruling when the District Court’s decision is based on clear error (see Part IV).
22.

Arguments demonstrating each of these District Court errors are presented in

Parts I-IV. Standards of review are de novo for questions concerning errors in law. The District
Court’s denial of Plaintiff’s Amended Complaint should be reviewed as an abuse of discretion.

Part I. District Court’s Rule 12fb¥61 Errors
23.

The District Court improperly ruled under Rule 12(b)(6) which was material legal

error and in direct conflict with this Court’s guidance in Ashcroft v. Iqbal, 556 U.S. 662,129 S.
Ct. 1937 (2009), hereinafter “Iqbal”. This is demonstrated by the reasons for the lower court’s
pleading stage errors provided in the following. For each of these reasons that Rule 12(b)(6) was
not properly followed, where Plaintiff’s Complaint actually contains one or more material factual
allegations which the District Court failed to read or ignored, it should be clear to the Court that
tiie District Court cannot satisfy Iqbal’s requirement to take all of these factual allegations as true
and still be able to rule as it did. Each instance provides reversible error during the pleading
stage.

a)

When considering Plaintiff’s harassment claim, the District Court wrongly states

“{employer’s] conduct was not frequent, severe or...threatening” (Memorandum Opinion,
Appendix A, p. 8), but Plaintiff’s Complaint alleges frequent, all-day, eveiy-day display of an
offensive object for 30 days (Appendix C, f30).3 The District Court also erroneously states “nor
did [the flag]...unreasonably interfere with plaintiff’s work performance” (Memorandum
3 Plaintiff’s Complaint also includes factual allegations showing e-mails from Rockwell Collins’
management which include actual threats of termination in response to his complaints (Appendix ■
C, HI 46, 52(d)).
10

— ...... Opinion, Appendix A, p. 8) even though Plaintiff’s Complaint provides multiple factual
allegations showing that Defendants’ offensive object did unreasonably interfere with Plaintiff’s
work (Appendix C, 111131, 32, 57(a), 101(a)). Furthermore, the District Court admits that
displaying a flag “associated with hatred or animus” (Memorandum Opinion, Appendix A, note
4) can be severe and pervasive enough to create a hostile work environment but wrongly states
that "there is no indication that the Gay Pride flag is associated with such animus” (Id.), which
wholly ignores the multiple, detailed factual allegations (and citations to evidence from public
sources) in Plaintiff’s Complaint showing that the Gay Pride flag was not created as a symbol of
peace and has been associated with animus and retaliation against Christians (Appendix C,
Uf52(a), 75, notes 5-6), including the following excerpt from the National Catholic Register:
“According to Chuck Fimandri, chief counsel to the Freedom of Conscience Defense
Fund, many Christians who oppose the Gay pride movement have been targeted in the
workplace: ’They have a mortgage to pay and kids to feed, so they give in and shut up,’
Fimandri said. ‘Others quit and try to get another job. Or they get fired and end up on
social services. There are thousands and thousands of them across the country. They have
said something or donated to something or declined to say something positive about
same-sex marriage and have become pariahs in their places of employment.’ (quoted in
the National Catholic Register, ‘It’s Not a Gay Old Time for Those Who Support
Traditional Marriage’, April 7, 2015)” Appendix C, note 5, inner quotes removed.
This Court should not find that the District Court is following the Court’s standard of review
under Iqbal if the District Court is making such blatant errors in considering the factual
allegations of Plaintiff’s Complaint. How can the District Court be given credit for properly
taking these multiple factual allegations in Plaintiff’s Complaint as true under Iqbal, showing the
Gay Pride flag and movement’s animus towards Christians, and still make the statement “there is
no indication that the Gay Pride flag is associated with such animus” (Memorandum Opinion,
Appendix A, note 4)? It should be clear that by the District Court’s own admission in the District
Court’s Opinion (Id.), Plaintiff’s Complaint can allow the Court to infer that it is likely that a
harassing workplace was caused by Defendants if all of the factual allegations of this animus in

11

Plaintiff ’s Complaint are taken as true. It is hard to believe that this glaring oversight was not
influenced by some bias in the lower court.
b)

When considering Defendants’ failure to accommodate, the District Court

findings claim that Plaintiff did not adequately allege "that he was subjected to any kind of
employment requirement” which conflicted with his religious beliefs (Memorandum Opinion,
Appendix A, p. 11), but Plaintiff’s Complaint provides factual allegations showing that
Defendant’s Human Resources representative responded to Plaintiff’s request for a location
where he would not be required to work in view of the offensive object by telling him that the
flags were flying at "all locations” (Appendix C, H39) and she did not “offer Tolle any
accommodation...at another location” (Id.). It should be clear to the Court that the only
reasonable interpretation of these factual allegations from Plaintiff’s Complaint under Iqbal lead
to the conclusion that it was a requirement of Plaintiff’s work to be within sight of an object
which he found offensive, an object which the company was flying at every location where
employees were required to work, and that without an accommodation which would allow
Plaintiff to work elsewhere, he was required to continue to work under the flag.
c)

Furthermore, during its failure to accommodate consideration, the District Court

states that "the complaint is devoid of allegations that plaintiff was disciplined for failing to
comply with that requirement” (Memorandum Opinion, Appendix A, p. 11), but Plaintiff’s
Complaint provides factual allegations showing that Plaintiff received threats of termination
following his complaint (“Any employee who treats another in a way that contradicts this
expectation will subject him or herself to discipline, up to and including termination.” Appendix
C, f46) as well as continuing conditions which were so intolerable that led to Plaintiff’s
constructive discharge (Appendix C, 1HI52-53). It is just plainly wrong that Plaintiff’s Complaint
Is “devoid of allegations” of disciplinary or adverse action and the District Court’s failure to find

12

-____ a constructive discharge or any adverse action, infra4, contributed to this error.
d)

When considering disparate impact, the District Court states that Plaintiff’s

Complaint “does not sufficiently allege that one group of people, for reasons of religion...was
impacted more than another.” (Memorandum Opinion, Appendix A, pp. 12-13, inner quotations
removed), but Plaintiff’s Complaint provides factual allegations showing that Defendants’ flying
a Gay Pride flag did create an environment which was unwelcoming to Christian employees and
applicants, clearly “one group of people”, including at least one other Christian employee who
confirmed that the environment created was unwelcoming to Christians (Appendix C, ffl|7, 57(d),
155(a)-(d), 156).
e)

Concerning disparate treatment, the District Court’s finding that Plaintiff’s

Complaint does not plausibly show a constructive discharge is wrong, infra.5 Plaintiff’s
Complaint also includes sufficient factual allegations of other adverse action based on conditions
of his work according to Meritor, infra.6
24.

All of the factual allegations from Plaintiff’s Complaint recited above and related

to the District Court’s Rule 12(b)(6) errors are substantial, well pleaded allegations. Indeed the
District Court made no finding showing that any of these factual allegations were defective or
not well pleaded.7 According to this Court’s teaching in Iqbal, “When there are well-pleaded
factual allegations, a court should assume their veracity” (Iqbal at 664). If the lower court had
4 See Part II, “District Court’s Errors Concerning Adverse Actions”.
5 See Part II, sub-section “Failure to Properly Apply this Court’s Precedent concerning
Intolerability for Constructive Discharge”.
6 See Part II, sub-section “District Court Erred by Failing to Find Other Adverse Actions”.
7 Although the District Court states (Memorandum Opinion, Appendix A, pp. 6-7) that “legal
conclusions pleaded as factual allegations, unwarranted inferences, unreasonable conclusions,
and naked assertions devoid of further factual enhancement are not entided to the presumption of
truth” according to Wikimedia Found v. Nat’l Sec. Agency, 857 F.3d 193, 208 (4th Cir. 2017)
when discussing the legal standard for pleading that would satisfy Iqbal’s requirements, the
District Court does not actually find that any of Plaintiff’s factual allegations fall into any of
these categories and the District Court makes no other finding which would give reason for this
Court not to take Plaintiff’s factual allegations as true.
13

. observed the guidance of this Court’s precedent and taken all of the factual allegations of
Plaintiff’s complaint as ttue, Petitioner believes that facial plausibility of Plaintiff’s claims would
have been clear and would allow “the court to draw the reasonable inference that the defendant is
liable for the misconduct alleged” (Id. at 663).
25.

For the foregoing reasons, the District Court’s application of the legal standard for

failure to state a claim under Iqbal was fatally flawed due to the lower court’s failure to accept
Plaintiff’s multiple, detailed factual allegations as true concerning workplace harassment, failure
of Defendants to accommodate Plaintiff’s religious practice or belief, and disparate impact and
disparate treatment based on religion. It is of note that in one instance, the District Court ignored
Plaintiff’s multiple factual allegations concerning the animus towards Christians which the Gay
Pride flag represents and based its dismissal on, without any other explanation, what seems to be
its biased opinion of the object’s animus. It should be clear to the Court that this is a violation of
Neitzke v. William, 490 U.S. 319, 327 (1989) (“Rule 12(b)(6) does not countenance... dismissals
based on a judge’s disbelief of a complaint’s factual allegations”). Each of the instances above
which are errors where the District Court failed to properly apply Iqbal are errors in law which
are not harmless and should lead to reversal of the pleading stage findings of the District Court
for Petitioner’s claims of workplace harassment, failure to accommodate religious belief or
practice, disparate impact and disparate treatment based on religion. Even if the Court is not
persuaded by the multiple examples of how the District Court failed to properly apply the
Court’s precedent in Iqbal, it should be troubling that the lower court ignored Plaintiff’s wellpleaded factual allegations in order to inject what appears to be the District Court’s own opinion
of or bias towards the Gay Pride flag and dismiss Petitioner’s claim of workplace harassment. By
the District Court’s own admission, an employer can be “liable for a hostile work environment
for posting a flag...associated with...animus based on...religion” (Memorandum Opinion,

~

Appendix A, note 4) and the only way that the District Court could not find harassment in
Plaintiff’s Complaint is by ignoring all of Plaintiff’s relevant factual allegations. This concern
alone should be sufficient reason for the Court to grant Petitioner’s request for Certiorari.

Part II. District Court’s Errors Concerning Adverse Actions
Failure to Properly Apply this Court’s Precedent concerning Intolerability for Constructive
Discharge
26.

The constructive discharge doctrine established by this Court in Pennsylvania

State Police v. Suders, 542 U.S. 129, 124 S.Ct. 2342,159 L.Ed.2d 204 (2004) (hereinafter,
"Suders”) and Green v. Brennan, 136 S. Ct. 1769,1776-77 (2016) (hereinafter, “Green”)
requires a court to consider the intolerability of the conditions faced by the employee before
finding a constructive discharge. Both Suders and Green call for a reasonable person test when
determining if a constructive discharge is an adverse action:
"The constructive-discharge doctrine contemplates a situation in which an employer
discriminates against an employee to the point such that his ‘working conditions become
so intolerable that a reasonable person in the employee's position would have felt
compelled to resign.’ Pennsylvania State Police v. Suders,542 U.S. 129,141,124 S.Ct.
2342,159 L.Ed.2d 204 (2004). When the employee resigns in the face of such
circumstances, Tide VII treats that resignation as tantamount to an actual discharge. Id.,
at 142-143,124 S.Ct. 2342.” Green at 1776-77.
27.

The District Court in Plaintiff’s case erred in its interpretation of this Court’s

constructive discharge precedents. First, the District Court wrongly added a deliberateness test
to its consideration of Plaintiff’s constructive discharge, contraiy to the teaching in Green.8
More importantly, the District Court’s error is reversible because its interpretation of
8 See Memorandum Opinion, Appendix A, p. 14. This contradicts higher court precedent: “We
do not also require an employee to come forward with proof...that his quitting was his employer's
plan all along.” Green v. Brennan, 136 S. Ct. 1769,1779-80 (2016); “The Supreme Court now
has clearly articulated the standard for constructive discharge, requiring objective
‘intolerability’...but not ‘deliberateness,’ or a subjective intent to force a resignation.” U.S. Equal
Emp't Opportunity Comm'n v. Consol Energy, Inc., 860 F.3d 131,144 (4th Cir. 2017).

15

. intolerability, in PlaintifPs case was flawed and did not properly apply the “reasonable person”
test of this Court’s constructive discharge precedents in Sliders and Green.
28.

The District Court should have more properly considered how to apply this

Court’s teaching concerning a test of a reasonable person in Plaintiff’s position for a Complaint
involving a failure of the employer to accommodate Plaintiff’s religious belief or practices. The
District Court erred in finding that forcing Plaintiff to see an object offensive to Plaintiff’s
religious beliefs and practice every day at work “would have had virtually no impact on a
reasonable person’s working life” (Memorandum Opinion, Appendix A, p. 15). If this Court’s
constructive discharge doctrine calls for a test of intolerability based on a reasonable person in
Plaintiff’s position of the same faith as Plaintiff, the District Court’s finding is clearly a
misapplication of the Court’s precedents since an offensive object to a religious person cannot be
expected to have “virtually no impact on a reasonable person” in that person’s shoes. For
example, can a court find that an image of Mohammed which a devout Muslim would find
offensive to his religious beliefs reasonably has no impact on the life of a person of that faith?
The only way that the District Court can minimize the impact of a religiously offensive object in
tire work place to a reasonable person is to rely on the perspective of other employees who do not
share the beliefs of the faith which finds an objection in the object. Petitioner believes that this
Court’s precedents calling for consideration of a “reasonable person in the employee’s position”
(Suders at 141) require a court to interpret the “employee’s position” from die perspective of one
who shares the faith of the employee, which the District Court clearly did not do in making its
finding of no intolerability in Petitioner’s case, stating that Petitioner should have “continued
working undeterred, and simply ignored the flag if he found it offensive” (Memorandum
Opinion, p. 15).
29.

Prior to the Suders guidance on constructive discharge, this Court taught how a

16

court should use “a reasonable person in the employee’s position”. In Oncale v. Sundowner
Offshore Servs., Inc., 523 U.S. 75, 81 (1998) (hereinafter, “Oncale”), the Court explained:
“We have emphasized, moreover, that the objective severity of harassment should be
judged from the perspective of a reasonable person in the plaintiffs position, considering
‘all the circumstances.’ Harris, supra, at 23. In same-sex (as in all) harassment cases, that
inquiry requires careful consideration of the social context in which particular behavior
occurs and is experienced by its target. A professional football player's working
environment is not severely or pervasively abusive, for example, if the coach smacks him
on the buttocks as he heads onto the field — even if the same behavior would reasonably
be experienced as abusive by the coach's secretary (male or female) back at the office
Oncale at 81, quoting Harris v. Forklift Sys., Inc., 510 U.S. 17 (1993), hereinafter
“Harris”.
30.

If a court’s proper analysis according to this Court’s precedent in Oncale can find

the objective reasonableness of an employee’s response to offensive behavior different between a
coach’s player and the coach’s opposite sex secretary, the proper analysis of intolerability under
the Court’s constructive discharge doctrine based on a reasonable person in the employee’s
position for a religious employee versus a non-religious employee should also encounter
differences in the objective reasonableness of their responses to a religiously offensive stimulus,
if “all the circumstances” (Oncale at 81, quoting Harris) of the devoudy religious employee are
correctly taken into account This should have informed the District Court in Petitioner’s case
concerning how to apply the intolerability analysis after Suders and Green.
31.

If this Court’s precedents for objective reasonableness before Suders and after

Suders are to be consistent, the reasonable person test of intolerability for constructive discharge
should consider the “perspective of a reasonable person in the plaintiffs position” (Oncale at 81)
in a case of religious discrimination based on a reasonable person in the same manner as was
taught in Oncale. If the Court does not intend for there to be a different standard for
reasonableness between constructive discharge cases and discriminatory harassment cases, the
reasonableness test for intolerability for constructive discharge should then be based on a

17

reasonable person who shares the same faith as the Plaintiff and, if “all the circumstances” of that
employee are considered, what is reasonable for a person having the same faith to do in response
to an object which is offensive to their shared religion should be the standard. Similarly, an
intolerability test based on a reasonable person who does not share the same faith or religious
objections, as used by the District Court in Plaintiff’s case, should not be proper under this
Court’s precedent. On the other hand, if this Court intended for the guidance on the reasonable
person test for constructive discharge to be different from that used in Oncale, it should be
important for the Court to grant Petitioner Certiorari in order for the Court to clarify this part of
its constructive discharge precedents.
32.

Since Green, other courts have interpreted this Court’s precedents for constructive

discharge intolerability in like manner to how Petitioner’s arguments interpret them. Prior to the
District Court’s ruling on intolerability in Petitioner’s religious accommodation case, the U. S.
Court of Appeals in the Fourth Circuit has found reason for intolerability and constructive
discharge after an employer fails to provide accommodation of religious practice:
“...there exists substantial evidence that Butcher was put in an intolerable position when
Consol refused to accommodate his religious objection.. ..This goes well beyond the kind
of run-of-the-mill ‘dissatisfaction with work assignments, [ ] feeling of being unfairly
criticized, or difficult or unpleasant working conditions’ that we have viewed as falling
short of objective intolerability. Cf. Carter v. Ball, 33 F.3d 450,459 (4th Cir. 1994)
(internal quotation marks omitted).” U.S. Equal Emp't Opportunity Comm’n v. Consol
Energy, Inc., 860 F.3d 131,145 (4th Cir. 2017), hereinafter, “Consol”.
33.

This seems to directly contradict the District Court’s ruling in Petitioner’s case

and supports Plaintiff’s arguments that what is reasonably intolerable for a devoutly religious
person has to be based on a reasonable person of faith. In Consol, Butcher objected to being
faced with a scanner system because according to his beliefs, “requiring him to use a scanner
system...would render him a follower of the Antichrist” (Consol at 145). Even though no other
reasonable person in Butcher’s position who did not share Butcher’s beliefs would consider the

18

situation intolerable, the Appellate Court found that failing to accommodate Butcher and forcing
a person having Butcher’s beliefs to violate his faith would be objectively intolerable under this
Court’s reasonable person test taught in Green. The District Court’s analysis in Petitioner’s case
does not take any of the Consol precedent into consideration when refusing to include persons
sharing Plaintiff’s faith in its reasonable person test of intolerability. Furthermore, the Appellate
Court’s affirmation of this District Court’s error in light of the Fourth Circuit precedent in
Consol does not address this apparent contradiction with its precedent in any way. Plaintiff
believes that if the District Court had properly applied this Court’s constructive discharge
guidance according to the precedent in the Fourth Circuit after Consol, the District Court would
have found that it is objectively reasonable for persons sharing Plaintiff’s faith and objections to
the Gay Pride flag to find being forced to see the offensive object every day was intolerable.
34.

Not only does the District Court’s decision in Plaintiff’s case depart from how the

Fourth Circuit has interpreted this Court’s reasonable intolerability under Suder and Green, but it
also directly conflicts with how other courts outside the Fourth Circuit have treated constructive
discharge and intolerability for religious discrimination and failure to accommodate cases. In
Young v. Southwestern Savings and Loan Assoc. 509 F.2d 140 (5th Cir. 1975), hereinafter
"Young”, the Fifth Circuit found religious offenses which were repugnant to an employee’s
beliefs as reasonably intolerable for constructive discharge after failure of the employer to
accommodate a religious objection, finding reason for her to leave based on her religious conflict
with her employer’s requirements:
“The only possible reason for...[Young’s] resignation on September 15,1971, was her
resolution not to attend religious services which were repugnant to her conscience,
coupled with the certain knowledge from Bostain, her supervisor, that attendance at the
staff meetings — in their entirety — was mandatory and the reasonable inference that if
she would not perform this condition of her employment, she would be discharged. In
these circumstances, when she could hope no longer that her absence at the meetings
would not be noticed, she could reasonably infer that in one week, one month or two

19

months, she would be discharged because of the conflict between her religious beliefs
and company policy. Surely it would be too nice a distinction to say that Mrs. Young
should have borne the considerable emotional discomfort of waiting to be fired instead of
immediately terminating her association with Southwestern. This is precisely the situation
in which the doctrine of constructive discharge applies, a case in which an employee
involuntarily resigns in order to escape intolerable and illegal employment requirements.”
Young at 144.
35.

In the Tenth Circuit, the court in Equal Employment Opportunity Commission v.

704 HTL Operating, LLC, 979 F. Supp. 2D 1220 (D.N.M. 2013), hereinafter, “HTL ” similarly
found that the objectively reasonable person required for intolerable constructive discharge
shared the same faith as the employee in that case (“Defendants fail to argue...the position that an
objectively reasonable Muslim woman would tolerate the employment requirement that she style
her hijab in a deliberately secular, hair-revealing manner.”, HTL at 1231). Furthermore, another
court in the Tenth Circuit has drawn attention to the tension between an employee’s First
Amendment right to practice his religion in the work place and the need for him to maintain
employment: “...the Court finds that the ultimatum given to Plaintiff was to resign from his job
or to agree to cease conducting his noon prayers in the building.” (Farah v. A-l Careers, No. 122692-SAC at *23 (D. Kan. Nov. 20, 2013), hereinafter, “Farah”). In Farah, the court found no
constructive discharge after considering this issue because of several examples, unlike
Petitioner’s case, where Farah’s employer attempted to accommodate his noon prayers.
36.

As in Consol and Young, Petitioner was forced to face something “repugnant” to

his conscience in his work environment for a whole month in 2019 and the promise of having to
face the same every year due to Defendants’ refusal to offer any accommodation to his religious
practice. The only alternative for a devout person in Plaintiff’s shoes (someone who shares his
beliefs) besides resignation was to stay away from work during the time that the offensive object
was displayed (for up to 1 month each year) and, as in Young, Plaintiff faced the very real
possibility that he would be disciplined and fired if he missed such a large amount of work.

20

Plaintiff ’s Complaint provides multiple factual allegations showing that Plaintiff had to leave
employment due to objectively intolerable working conditions after Defendants failed to
accommodate his religious practice (Appendix C, ffli53,106(d), 120(a)-(e), 121(b)). Console and
Young teach that constructive discharge applies to Plaintiff’s resignation based on a failure to
accommodate a religious practice and that the District Court’s failure to find a constructive
discharge is an error in law. In the Fourth Circuit, constructive discharge provides evidence of
adverse action for religious discrimination (Von Gunten v. Maryland, 243 F.3d 858, 865 (4th Cir.
2001), “Of course, ‘ultimate employment decisions’ — to hire, discharge, refuse to promote, etc.
—can constitute the necessary adverse employment action”) and the District Court erred
because an adverse action based on constructive discharge can be used to satisfy criteria for
multiple forms of Title VII discrimination, including the use of Plaintiff’s allegations of
constructive discharge to infer violations of both religious discrimination based on Defendants’
failure to accommodate and disparate treatment.9
37.

The District Court’s failure to apply this Court’s precedents for intolerability

correctly and failure to find religious discrimination from the adverse action of a constructive
discharge is a reversible error.

District Court Erred by Failing to Find Other Adverse Actions
38.

The District Court also erred by focusing solely on economic and tangible adverse

actions by Defendants. The District Court states: “Plaintiff has not adequately alleged that he
suffered an adverse employment action. ‘An adverse action is one that constitutes a significant
change in employment status...or a decision causing a significant change in benefits.’”
9 See James v. Booz-Allen Hamilton, Inc., 368 F.3d 371 (4th Cir. 2004) at 375 and note 2: “Von
Gunten's discussion of what constitutes adverse action applies here as ‘[i]n the absence of strong
contrary policy considerations, conformity between the provisions of Title VTI is to be
preferred.’, quoting Ross v. Communications Satellite Corp., 759 F.2d 355, 365 (4th Cir. 1985)”.
21

(Memorandum Opinion, Appendix A, p. 13, quoting Hoyle v. Freightliner, LLC, 650 F.3d 321,
337 (4th Cir. 2011), hereinafter “Hoyle”). The District Court erred in not finding a change in
employment status through the constructive discharge alleged in Plaintiff’s Complaint, supra.
But the District Court also erred by wrongly relying on case law for a “tangible employment
action”.
39.

Hoyle relies on this Court’s ruling in Burlington Indus., Inc. v. Ellerth, 524 U.S.

742 (1998), hereinafter “Ellerth”. However, Hoyle inaccurately draws on this Court’s definition
of a "tangible employment action” in Ellerth (at 761) to define all forms of an “adverse action”
(Hoyle at 337) under Title VII. This Court’s teaching on tangible employment action from
Ellerth does not apply to Petitioner’s case because Ellerth’s consideration of tangible
employment action was limited to “resolution of the vicarious [employer] liability issue we
consider here” (Ellerth at 761). Searching for a “tangible employment action” to impute liability
to the employer is not required in Petitioner’s instant case because the discriminatory actions by
Defendants were indisputably liable to the employer, which explicitly instituted the policy to
display the offensive object (Appendix C, Kf39, 40(a),40(f)).
40.

The District Court’s use of Hoyle led to its fatally flawed analysis of adverse

action by only considering a “change in benefits” and “materially adverse action” (Memorandum
Opinion, note 9) based on economic factors: “There is no indication...that Rockwell Collins took
a materially adverse action against plaintiff.. ..In fact...far from retaliating against plaintiff,
Rockwell Collins offered him a job as a regular employee....” (Id.) The District Court’s findings
contradict this Court’s guidance from Meritor, which specifically states:
“The language of Title VII is not limited to ‘economic’ or ‘tangible’ discrimination. The
phrase ‘terms, conditions, or privileges of employment’ evinces a congressional intent ‘to
strike at the entire spectrum of disparate treatment of men and women’ in employment.
Los Angeles Dept, of Water and Power v. Manhart, 435 U.S. 702, 707, n. 13 (1978)”
Meritor at 64.

22

Hie District Court erred in law by not properly using the full scope of this Court’s guidance for
Title VII adverse action under Meritor.
41.

Plaintiff’s Complaint alleges sufficient impact to the “conditions” of his

employment following his complaint of the religiously offensive object The facts alleged show
that Defendants were responsible for a hostile work environment where Plaintiff found a
religiously offensive object (Appendix C, HH31,74(a)-(d)) which impacted his work (Appendix C
1H131-32,73(b)) and Defendants allowed these conditions to continue by failing to offer the
accommodation requested by Plaintiff (Appendix C, 111135,39,45,52(c),97(a)-(e)). Forcing
Plaintiff to continue working in an unmitigated hostile environment was an adverse action.
Furthermore, Plaintiff’s Complaint alleges threats by Defendants’ representatives against
Plaintiff based on his religious beliefs (Appendix C, f46) which contributed to a hostile work
environment that sufficiently altered the conditions of his work to be an adverse action.
42.

In Rogers v. Equal Employment Opportunity Com'n, 454 F.2d 234, 238 (5th Cir.

1972), the Fifth Circuit found reason for a hostile work environment to be sufficient to impact
Title VII’s “conditions” of employment. This Court incorporated this principle in its Opinion in
Meritor, stating: "Since the [EEOC] Guidelines were issued, courts have uniformly held, and we
agree, that a plaintiff may establish a violation of Title VII by proving that discrimination based
on sex has created a hostile or abusive work environment.” (Meritor at 66) If the District Court
had applied the full scope of this Court’s precedent for Title VII discrimination to Plaintiff’s
Complaint, it should have found that the hostile work environment created by Defendants’
actions which forced him to alter his religious practice and by Defendants’ threats against
Plaintiff due to his religious beliefs did sufficiently impact the “conditions” of his employment to
make it plausible that there was a violation of Title VII due to discrimination based on religion.

23

—Part III. Error in Law or Due Process Violation when Considering New Matter under Rule 12
District Court Failed to Follow Supreme Court Precedent and Rule 12(d)
43.

The District Court erred in law by not converting the Defendants’ motion to

summary judgment following new matter presented by Defendants as is required under Rule
12(d). The District Court improperly ruled on Defendants’ motion after accepting matter which
was outside of Plaintiff’s Complaint. Defendants’ arguments cited Peterson v. Hewlett-Packard,
358 F.3d 599 (9th Cir. 2004), hereinafter “Peterson”, and claimed “Like the plaintiff in Peterson,
Plaintiff made abundantly clear to Rockwell Collins that he believes homosexuality is a sin”
(Defendants’ Reply in Support of their Motion to Dismiss, Appendix D, p. 3) and “as Plaintiff
seems to assert, employers are required to conform to the individual moral code of each
employee who seeks to impose their personal and individual views on the rest of the workforce”
(Defendants’ Reply in Support of their Motion to Dismiss, Appendix D, p. 4). However,
Plaintiff ’s Complaint never contained any factual allegation in which Plaintiff stated “he believes
homosexuality is a sin”. Furthermore, Plaintiff’s Complaint makes no assertion that “employers
are required to conform to the individual moral code” of Plaintiff and, based on what is in the
facts of the Complaint, Plaintiff never expected or asked Rockwell Collins to do this. This was
new matter presented as part of Defendants’ REPLY to Plaintiff’s opposition to a Rule 12(b)(6)
challenge10, precluding Plaintiff a reasonable opportunity to oppose such new matter because it
was inserted as part of Defendants’ REPLY at the last stage of the briefings to the District Court
The District Court did not exclude this new matter from Defendants’ brief and even used
Defendants’ arguments from Peterson, stating: ‘Defendants have drawn a useful comparison
with...Peterson....” (Memorandum Opinion, Appendix A, p. 16). The District Court accepted
IQ “Factual allegations contained in legal briefs or memoranda are also treated as matters
outside the pleading for purposes of Rule 12(b)”, Fonte v. Bd. of Mgers. Of Cont. Towers Condo,
848 F.2d 24, 25 (2d Cir. 1988)).
24

Defendants’ new matter which claimed that Tolle “believes homosexuality is a sin” to draw a
comparison with the Plaintiff in Peterson, stating: “In Peterson, the plaintiff...’...believes that
homosexual activities violate the commandments contained in the Bible and that he has a duty to
expose evil when confronted with sin’” (Memorandum Opinion, Appendix A, p. 16, quoting
Peterson at 601, inner quotations removed). By allowing Defendants’ new matter to be
presented, not excluding it, and even relying on it to form the District Court’s Opinion, the
District Court improperly allowed Defendants to present new evidence into a Rule 12(b)(6)
procedure.
44.

According to Rule 12(d), a court is required to convert a Rule 12(b)(6) review to

summary judgment if new matter is presented and not excluded by the court, specifically stating:
“If, on a motion under Rule 12(b)(6) or 12(c), matters outside the pleadings are presented
to and not excluded by the court, the motion must be treated as one for summary
judgment under Rule 56. All parties must be given a reasonable opportunity to present all
the material that is pertinent to the motion.” (Rule 12(d))
45.

This Court has clearly established that it is an error in law for a court to fail to

convert a Rule 12(b)(6) review to summaiy judgment under Rule 56 after not excluding new
matter and such error is reversible, stating:
“But it appears that at the hearing on the motion to dismiss, which was based in part on
die asserted failure "to state a claim upon which relief can be granted" (App. 19), matters
outside the pleadings were presented and not excluded by the court. The court was
therefore required by Rule 12(b) of the Federal Rules of Civil Procedure to treat the
motion to dismiss as one for summary judgment and to dispose of it as provided in Rule
56.” Carter v. Stanton, 405 U.S. 669, 671 (1972) (hereinafter “Stanton”), referring to
“Rule 12(b)” which is now covered under Rule 12(d).
46.

There is no evidence in the record that the District Court in Plaintiff’s case

converted its Rule 12(b)(6) review to a summary judgment proceeding and if it had intended to
follow the law and do so, “its order is opaque and unilluminating as to either the relevant facts”
(<Stanton at 671) from Plaintiff’s Complaint which rebutted Defendants’ new matter or the law

25

-guiding its conversion. It is notable that even if the District Court intended a conversion to
summary judgment, the District Court never gave Plaintiff any proper notice or opportunity to
oppose Defendants’ claim that Tolle’s beliefs were similar to Peterson before the District Court
accepted these new alleged facts. If the District Court had followed Rule 12(d) and this Court’s
precedent in Stanton correctly to consider Defendants’ new matter under Rule 56, Rule 56
requires that the trial court not grant summary judgment until “[ajfter giving notice and a
reasonable time to respond” (Rule 56(f)). Indeed, this Court has expected notice and opportunity
to oppose prior to a summary judgment decision (“district courts are widely acknowledged to
possess the power to enter summary judgments sua sponte, so long as the losing party was on
notice that she had to come forward with all of her evidence.” Celotex Corp. v. Catrett, All U.S.
317, 326 (1986)). If the purpose of Rules 56 consideration is not intended to deny Plaintiff the
opportunity to oppose Defendants’ efforts to dismiss genuine issues for trial (especially after
conversion due to new matter which was inserted into Defendants’ REPLY to Plaintiff’s
opposition brief, which Plaintiff never had an opportunity to oppose), the District Court erred by
cutting off Plaintiff’s ability to show that the alleged facts based on the new matter were
genuinely in dispute (“the purpose of the rule is not to cut litigants off from their right of trial by
jury if they really have issues to try” Sartor v. Arkansas Gas Corp., 321 U.S. 620, 627 (1944),
hereinafter “Sartor”).
47.

Other courts have ensured the protections for plaintiffs under Rule 56 before

summary judgment, including recognizing the requirements for notice to all parties, the
reasonable opportunity to oppose summary judgment, and even discovery in some cases.11
11 It is notable that despite the U. S. Court of Appeals for the Fourth Circuit being silent on
Petitioner’s Assignment of Error for not providing notice when considering new evidence, the
Appellate Court has explicitly previously found that Defendants may present new evidence
during a Rule 12(b)(6) proceeding "only after notice that the court intends to convert the Rule
12(b)(6) motion into a Rule 56 motion.” Fayetteville Investors v. Commercial Builders, 936 F.2d
1462 (4th Cir. 1991) (note 9). Courts in other circuits roundly require notice and reasonable
26

---------48.

The failure of the District Court to convert its Rule 12(b)(6) review to summary

judgment under Rule 56 after deciding to not exclude Defendants’ new matter and even relying
on it in its decision is an error in law12 because it did not follow the express rules of procedure
under Rule 12(d), the precedent of this Court and the established practice throughout the courts
of the land. Furthermore, such error was not mere harmless error to Petitioner because the
District Court used the arguments and new matter presented by Defendants to dismiss Plaintiff’s
opportunity to oppose before summary judgment, which Petitioner was not afforded after the
new matter in this case. See Rivera v. Centro, 575 F.3d 10,15 (1st Cir. 2009) ("If, however, the
supplemental materials submitted to the district court fall outside this narrow class of documents,
and the court chooses to consider them using Rule 12(d)'s conversion procedure, '[ajll parties
must be given a reasonable opportunity to present all the material that is pertinent to the motion.'
Fed.R.Civ.P. 12(d)."); Glob. Network Commc’ns v. City ofN.Y, 458 F.3d 150,155 (2d Cir. 2006)
(“The conversion requirement of Rule 12(b) thus..ensures that when a trial judge considers
evidence dehors the complaint, a plaintiff will have an opportunity to contest defendant's \
relied-upon evidence by submitting material that controverts it.”); Radich v. Goode, 886 F.2d
1391,1393 (3d Cir. 1989) (“The court must give a party opposing summary judgment an
adequate opportunity to obtain discovery. Dowling, 855 F.2d at 139.”); International Shortstop,
Inc. v. Rally's, 939 F.2d 1257,1267 (5th Cir. 1991) ("The Supreme Court itself has cautioned
against granting summary judgment prematurely. In Anderson, the Court indicated that the
nonmoving party's obligation to respond to a motion for summary judgment 'is qualified by Rule
56(f)'s provision that summary judgment be refused where the nonmoving party has not had the
opportunity to discover information that is essential to his opposition.' Anderson, 106 S.Cl at
2511 n. 11. The Court stated that the nonmoving party must present affirmative evidence in
response to a summary judgment motion, ‘even where the evidence is likely to be within the
possession of the defendant, as long as the plaintiff has had a full opportunity to conduct
discovery.’ Id. 106 S.Ct. at 2514 (emphasis added)."); Dayco Corp. v. Goodyear Tire Rubber Co.,
523 F.2d 389, 393 (6th Cir. 1975) (“The ‘reasonable opportunity’ language of Rule 12(b) is
designed to prevent unfair surprise to the parties....Where one party is likely to be surprised by
the proceedings, notice is required.”); Interco Inc. v. National Sur. Corp., 900 F.2d 1264,1269
(8th Cir. 1990) ("A federal district court may grant summary judgment, pursuant to Fed.R.Civ.P.
56, sua sponte, provided that the party against whom judgment will be entered was given
sufficient advance notice and an adequate opportunity to demonstrate why summary judgment
should not be granted. 10A C.A. Wright, A.R. Miller M.K. Kane, Federal Practice and
Procedure § 2720, p. 27 (2d ed. 1983)."); Miller v. Glanz, 948 F.2d 1562,1565 (10th Cir. 1991)
("In Peterson, we also concluded that when a conversion to a Rule 56 motion is proper, 'the trial
court should give the parties notice of the changed status of the motion and thereby provide the
parties to the proceeding the opportunity to present to the court all material made pertinent to
such motion by Rule 56.'", quoting Ohio v. Peterson, Lowry, Rail, Barber & Ross, 585 F.2d 454,
457 (10th Cir. 1978)); Winston & Strawn, LLP v. McLean, 843 F.3d 503, 507 (D.C. Cir. 2016)
(“Rule 56(e)(1) empowers the District Court to 'give a party who has failed to address a
summary judgment movant's assertion of fact an opportunity to properly support or address the
27

claims of religious discrimination without giving Plaintiff any opportunity to oppose them. By
drawing a comparison between Peterson’s belief that “homosexuality is a sin” and Plaintiff’s
objections to the display of the Gay Pride flag, the District Court relied on Defendants’ alleged
new matter as a material fact for which Petitioner believes there was genuine dispute based on
Plaintiff’s Complaint. By failing to follow Rule 12(d) after not excluding this genuine issue
from its decision and failing to give Plaintiff any opportunity to contest the new matter, the
District Court erred in law by cutting off Plaintiff’s right of trial of the material issue in dispute
by jury as in Sartor; which was not merely harmless error.

District Court Denied Plaintiff Due Process Required by Rules 12(d) and 56
49.

Rule 56 states that “A party may object that the material cited to support or

dispute a fact cannot be presented in a form that would be admissible in evidence.” The District
Court failed to give Plaintiff the opportunity to do this prior to its DISMISSAL and denied
Plaintiff due process rights under the Federal Rules of Civil Procedure and the Fifth
Amendment13 for this reason. The District Court erred in law in not following Rule 12(d) to
convert its review to summary judgment after Defendants submitted new matter and the District
Court did not exclude this matter from its decision to dismiss, supra. By failing to follow the
fact.' Grimes, 794 F.3d at 92”, quotes for Rule 56(e)(1) removed).
12 Failure of the District Court to follow Rule 12(d) and Rule 56 procedures and this Court’s
precedent for converting a Rule 12(b)(6) review when considering new matter is an error in law.
Although a lower courts decision to convert a Rule 12(b)(6) motion to summary judgment when
considering new matter can be reviewed for abuse of discretion, such standard of review
properly applies only when the lower court is properly following the requirements of civil
procedure and previous court precedent The failure of the lower court to follow the explicit
rules of civil procedure or to follow this Court’s precedent in how it handles new matter before
summary judgment are errors in law and should be reviewed as such.
13 Failure to provide a non-moving party procedural protections under Rule 12(d) or Rule 56
are violations of the due process required under the Fifth Amendment of the U. S. Constitution
(see consideration of due process rights for Fifth Amendment violations under Rule 56 in United
States v. Fisher-Otis Company, Inc., 496 F.2d 1146, 1151 (10th Cir. 1974)).
28

law and properly_convert its review to summary judgment under Rule 56, the District Court
failed to give Plaintiff the due process required under the rules for a conversion of a Rule 12(b)
(6) motion to summary judgment. Alternatively, even if the Court finds that the District Court
did properly convert Defendants1 motion to summary judgment according to Rule 12(d), then the
District Court failed to provide due process to Petitioner when it failed to provide Petitioner
notice of its conversion and did not provide Petitioner any reasonable opportunity to oppose the
summary judgment in accordance with Rule 56.
50.

The District Court denied Petitioner due process and erred in law by failing to

provide Notice to Petitioner for a proceeding which should be decided by summary judgment,
supra, and by failing to provide Plaintiff a reasonable opportunity to oppose the summary
judgment and take discovery to support its opposition. Rule 12(d) requires that “All parties must
be given a reasonable opportunity to present all the material that is pertinent to the motion.”
Furthermore, Rule 56(f) requires that courts only make summary judgments “[ajfter giving
notice and a reasonable time to respond”. Many courts have found that ‘reasonable opportunity1
like that under Rule 12(d) requires notice before summary judgment. Notably in the Fourth
Circuit: “We have held that the term ‘reasonable opportunity1 includes ‘some indication by the
court to all parties that it is treating the 12(b)(6) motion as a motion for summary judgment,1 with
the consequent right in the opposing party to file counter affidavits or to pursue reasonable
discovery. 491 F.2d at 513, quoting Dale v. Hahn,440 F.2d 633, 638 (2 Cir. 1971)” Plante v.
Shivar, 540 F.2d 1233, 1235 (4th Cir. 1976).14 The District Court did not exclude Defendants1
14 See also Rivera v. Centro, 575 F.3d 10,16 (1st Cir. 2009) ("we do not endorse the district
court's treatment of the motion to dismiss (i.e., its sub silentio conversion into a motion for
summary judgment)"); Dayco Corp. v. Goodyear Tire Rubber Co., 523 F.2d 389, 393 (6th Cir.
1975) (“The ‘reasonable opportunity1 language of Rule 12(b) is designed to prevent unfair
surprise to the parties....Where one party is likely to be surprised by the proceedings, notice is
required.11); Intereo Inc. v. National Sur. Corp., 900 F.2d 1264,1269 (8th Cir. 1990) ("A federal
district court may grant summary judgment, pursuant to Fed.R.Civ.P. 56, sua sponte, provided
that the party against whom judgment will be entered was given sufficient advance notice and an
—29- - -

new matter, and even relied on it in its DISMISSAL, supra. If the Court finds that the lower
court erred in law by not converting its Rule 12(b)(6) review to summary judgment under
Rule 56 when it decided not to exclude the new matter, it should be clear that Plaintiff was
denied due process notice when the District Court failed to follow proper procedure.
Alternatively, if the Court believes that the District Court did convert its Rule 12(b)(6) review to
summary judgment, the District Court still did not follow proper civil procedure because Plaintiff
did not receive “notice and a reasonable time to respond” as required under Rule 56(f) after the
District Court decided to convert its review to summary judgment. For these reasons, the
District Court’s failure to give Plaintiff notice after deciding to not exclude the new matter in
Defendants’ REPLY and to rely on it in the District Court’s Opinion is an error in law which
violates Petitioner’s due process protected by the rules of civil procedure.
51.

The District Court’s opinion relied on new matter related to genuine issue of

material fact in Plaintiff’s case and the District Court’s error which denied Plaintiff’s due process
rights to notice and a reasonable opportunity to respond was not merely harmless. Furthermore,
die failure of the District Court to provide specific procedural due process under Rules 12(d) and
56 after conversion to summaiy judgment was required prejudiced Petitioner’s reasonable
opportunity to respond, to challenge the new matter (i.e., the alleged facts of Defendants) and to
show the genuine issues related to the matter which the District Court did not exclude from its
Opinion. The procedural due process errors of the lower court prejudiced Petitioner according to
die requirements of Rules 12(d) and 56 more specifically as follows.
adequate opportunity to demonstrate why summary judgment should not be granted. 10A C.A.
Wright, A.R. Miller M.K. Kane, Federal Practice and Procedure § 2720, p. 27 (2d ed. 1983).");
Miller v. Glanz, 948 F.2d 1562,1565 (10th Cir. 1991) ("In Peterson, we also concluded that
when a conversion to a Rule 56 motion is proper, 'the trial court should give the parties notice of
die changed status of the motion and thereby provide the parties to the proceeding the
opportunity to present to the court all material made pertinent to such motion by Rule 56.'",
quoting Ohio v. Peterson, Lowry, Rail, Barber & Ross, 585 F.2d 454,457 (10th Cir. 1978)).
30

.a).

.Petitioner was deprived of reasonable opportunity to submit “all the material that

is relevant to the motion” as allowed by Rule 12(d). Petitioner had no opportunity to provide all
material or evidence concerning the genuine issues described above after a conversion to
summary judgment because the District Court gave Petitioner no notice or opportunity to do this
after the conversion. Petitioner also had no opportunity to rebut the new matter presented by
Defendants in their REPLY because the District Court gave Petitioner no time to respond and
conducted no hearing before accepting the new matter.
b)

Rules 56(a) and (c) afford Petitioner important protections by requiring the

moving party to clearly identify the basis for summary judgment and the materials in the record
supporting the conversion. However, there was no motion by Defendants for summaty judgment
and even if the Court considers Defendants’ REPLY (Defendants’ Reply in Support of their
Motion to Dismiss, Appendix D) as satisfying these rules, Petitioner never did have an
opportunity to respond to or rebut the new matter presented by Defendants under Rules 56(c)(1)
or 56(c)(2) because it was only identified at the end of briefings and the District Court decided
Defendants’ motion without a hearing. Furthermore, if the District Court converted Defendants’
motion to summary judgment sua sponte, it precluded the Petitioner any opportunity to respond,
object, or request any discovery in order to oppose the summary judgment.
c)

Rule 56(d) protects Petitioner from summary judgment based on facts not

available to him at the time the summary judgment is considered. Petitioner had no opportunity
to oppose summary judgment, take discovery or provide material or evidence concerning the
genuine issues related to the new matter. Petitioner was prejudiced in this regard concerning the
genuine issues decided by the District Court’s Opinion because the District Court provided
Petitioner no notice or opportunity to do this after Defendants’ REPLY.
d)

The District Court’s Local Rules include additional requirements for summary

31

judgment motions, including allowing for “a fact which is controverted in the statement of
genuine issues filed in opposition”, which afford Petitioner further protections which were not
provided in this case. Petitioner was given no opportunity to specifically identify the genuine
issues in the case, as discussed above, after conversion to summary judgment as required by the
Local Rules.
52.

The District Court erred in law by not excluding new matter from Defendants’

REPLY during its review of Defendants Rule 12(b)(6) motion and by not converting its review to
summary judgment as required by Rule 12(d) and this Court’s precedent, supra. This is
reversible error which should cause the Court to grant Petitioner’s request for Certiorari.
Alternatively, if the Court finds that the District Court did properly convert Defendants’ motion
to summary judgment after new matter, the District Court still erred in law by not providing
Plaintiff the procedural due process required after conversion under Rules 12(d) and 56, supra.
Ensuring that the lower courts adequately protected Petitioner’s constitutional right to due
process should be reason for the Court to grant Petitioner’s request for Certiorari.

Part IV. District Court’s Failure to Allow Plaintiff’s Amended Complaint is Based on Clear Error
53.

The District Court’s denial of Plaintiff’s request to amend his Complaint is an

abuse of discretion because it is based on clear error. Specifically, the District Court ignored
additional factual allegations added to the Amended Complaint which are material facts related
to genuine issues affecting the District Court’s findings. This is explained in the following.
54.

The District Court explains its denial of the Amended Complaint by stating

"These amendments do nothing to cure the issues described above” (Memorandum Opinion,
Appendix A, p. 18). However, this is clearly in error because the factual allegations included in
Plaintiff’s Amended Complaint provide material fact which directly contribute to Plaintiff’s

-32--------

pleadings and would aid Plaintiff in overcoming the District Court’s concerns about Plaintiff’s
workplace harassment and disparate treatment claims.
55.

In the District Court’s analysis of Plaintiff’s workplace harassment claim, the

District Court states that its decision is based on the fact that, quoting Defendants, “Plaintiff was
not even required to look at the flag: he merely had to pass by it in the parking lot before he
entered the building for work”15 and “Such conduct falls woefully short of being ‘severe or
pervasive enough to create an objectively hostile...work environment.’”16, quoting Harris. These
findings are clearly in error if the Court considers the changes in the Plaintiff’s Amended
Complaint which address how purposely prominent and pervasive the flag was displayed and
how Plaintiff had to more frequently see the offensive object (i.e., could not avoid seeing it in its
prominent location) every time he went outside during the day, not just once when he entered the
building in the morning.
a)

First, the Amended Complaint modifies Plaintiff’s Complaint at Appendix C, f30,

to state the the Gay Pride flag was flown “on the flag pole in front of’ Plaintiff’s work location.
Also, a note was added explaining how this location was purposely chosen to display the flag in
the most influential location at the work site, making the company’s favoritism of the Gay Pride
movement well known and pervasive throughout the company, stating as follows:
"The main flag pole at the Sterling location is situated in the main parking lot, which is in
front of all employee entrances to the building. This flag pole is purposely installed in a
prominent position and Tolle had to view the Gay Pride flag on this flag pole every day
when arriving at the building or leaving the building during its display.”
b)

. This location of the display was key in order to make the company’s sponsorship

of the Gay Pride movement well known to all employees and the public and pervasive
throughout the company. The following factual allegation supporting this was added to
15 Memorandum Opinion, Appendix A, p. 9.
16 Id.
33

_ Plaintiff’s Complaint at Appendix C, ff 69(c), 71(c), 89(c), 92(a), 98(a),133(b) and between
90(e) and 90(f), and between 116(a) and 116(b):
“Due to the prominent location of the flag pole at his location, Tolle was required to see
the Gay Pride flag every day that it was flown whenever he arrived at work or left the
building.”
56.

All of these factual allegations rebut Defendants’ arguments against Plaintiff’s

claim of a hostile work environment, establishing a frequent and pervasive display of an
offensive object which was intended to be seen by all employees throughout the work site. In
light of the above, it is clearly erroneous for the District Court to state that these changes to
Plaintiff’s Complaint “do nothing” to the “issues” considered in the District Court’s Opinion.
Not only do these changes directly relate to the issues which the Defendants and District Court
have raised concerning Plaintiff’s workplace harassment claims, but if taken as true, these
allegations should help reverse the District Court’s finding concerning this claim. Because of
this clear error, the District Court abused its discretion by not allowing or considering these
changes. This error was not merely harmless to Plaintiff because the changes have a direct
bearing on the issues the Defendants and District Court raised with Plaintiff’s workplace
harassment claims.
57.

The District Court’s error in not allowing Plaintiff’s Amended Complaint also has

direct bearing on the District Court’s analysis and findings concerning the Plaintiff’s disparate
treatment claim. Specifically, the District Court Opinion does not accept Plaintiff’s factual
allegation showing evidence of “a bias in Rockwell Collins policies which was markedly in favor
of Gay Pride while unwilling to show public support for any other minority point of view”
(Appendix C, H 48). This is noted in the District Court’s consideration of Plaintiff’s disparate
treatment claim and the District Court makes a lack of bias a key reason for its dismissal of
Plaintiff’s claim, stating “Rockwell Collins...explicitly confirmed that it did not support one

34

viewpoint over another” (Memorandum Opinion, Appendix A, p. 17). However, Plaintiff’s
Amended Complaint included factual allegations which show that Defendants’ actions were in
fact more biased and favored the Gay Pride minority than other minorities. This is shown in the
following changes from Plaintiff’s Amended Complaint:
a)

Hie Amended Complaint added the factual correspondence between Plaintiff and

RCCT, contemporaneous with the display of the Gay Pride flag: “I have never seen another
minority flag flown over the company except this one. What is Collins Aerospace’s policy on
flying other minority flags over its facilities?” (added to sub-paragraphs at Appendix C, K 34).
b)

The Amended Complaint added the fact that the company’s response to Plaintiff

provided no evidence of supporting minorities with prominent flag displays other than its support
of the Gay Pride movement:
“Wade’s e-mail also reflected this bias in his response to Tolle’s questions about flying
other minority flags: ’Collins Aerospace is not a Company which is affiliated or
sponsored by any particular chruch [sic.] or religion, and thus the Company does not
sponsor or support any particular religious or political viewpoint, practice or membership
to the exclusion of others.’ It is noteworthy that Rockwell Collins responses to Tolle’s
questions did not explain why Rockwell Collins did not fly other minority flags in the
same manner as the Gay Pride flag.” (added to text at Appendix C, ff 48, 152(d))
58.

These factual allegations from the Amended Complaint directly serve to defeat

die District Court’s finding that Rockwell Collins’ policy towards the Gay Pride flag did not
favor one minority over another. If the District Court would have properly allowed these
material facts in Plaintiff’s Amended Complaint and taken them as true as part of its analysis, it
would have found that they show a bias which satisfies the fourth criteria the District Court cited
for a prima facie case of religious discrimination: “different treatment from similarly situated
employees outside the protected class” (Memorandum Opinion, Appendix A, p. 13, quoting
Coleman v. Maryland Court ofAppeals, 626 F.3d 187,190 (4th Cir. 2010), aff’d sub nom.
Coleman v. Court of Appeals of Maryland, 566 U.S. 30 (2012)).

35

--------- 59-----Inlight of,this.material contribution of these factual allegations to the Court’s
consideration of Plaintiff’s claims, it is clearly erroneous for the District Court to state that these
changes to Plaintiff’s Complaint “do nothing” to the “issues” considered in the District Court’s
Opinion. Not only do these changes direcdy relate to the issues which the District Court has
raised concerning Plaintiff’s satisfying a prima facie case for disparate treatment, but if taken as
true, these allegations should help reverse the District Court’s finding concerning this claim.
Because of this clear error, the District Court abused its discretion by not allowing or considering
these changes. This error was not merely harmless to Plaintiff because the changes have a direct
bearing on the issues the District Court raised with Plaintiff’s religious discrimination claim.
60.

Based on the foregoing examples of how the District Court’s dismissal of the

material factual allegations from the Amended Complaint in its consideration of key claims of
Plaintiff’s Complaint, it should be clear that the District Court’s reasons for not granting
Plaintiff’s request to amend his Complaint were clearly erroneous and this Court should grant
Petitioner’s request for Certiorari in order to ensure that the District Court did not abuse its
discretion based on this error.

CONCLUSION
61.

Petitioner’s arguments have shown multiple errors in the District Court’s

application of this Court’s pleading standard which have been affirmed without comment by the
Appellate Court. The most egregious example of this is based on wholesale refusal to consider
multiple, well-pleaded factual allegations and referenced evidentiary support from Plaintiff’s
Complaint in order to obtain the interpretation of the case which seems to align best with the
District Court’s own opinion of the Gay Pride flag and this represents an assault by the District
Court on this Court’s pleading standard after IqbaL The fact that the District Court’s Opinion

"36"

.finds no.defect in Plaintiff ’s many factual allegations that it ignored for workplace harassment
and other claims bolsters Petitioner’s arguments that the District Court rejected this Court’s
pleading standard when considering Plaintiff’s claims. If the District Court had taken all these
allegations as true according to the proper application of Iqbal, the District Court’s findings
could not be justified. These errors by the District Court were not mere harmless errors because
without the District Court’s improper review under Iqbal, Plaintiff’s Complaint would have met
this Court’s pleading standard and should not have been dismissed. Not only did the District
Court’s errors directly prejudice Plaintiff’s Complaint, but the District Court’s DISMISAL based
on these errors denied Plaintiff due process during the pleading stage under this Court’s standard
of review. Even if the Court believes that the failure in Appellate review of this error is restricted
only to Petitioner’s case, the lower courts’ actions have still denied Petitioner his Fifth
Amendment right to due process and Article III right to judicial review based on reversible error.
But failure of the Court to grant Certiorari in order to ensure the protection of its precedents and
standards on pleading in Petitioner’s case is likely to lead to more prevalence of this practice
which the Appellate Court affirmed and portends the dismantling of this Court’s rule of law in
die Fourth Circuit. If the District Court’s actions in Plaintiff’s case becomes the norm for Rule
12(b)(6) reviews, lower courts will be able to pick and choose which factual allegations they
want to use in order to obtain the results which they prefer. Based on the Appellate Court’s
refusal to address Plaintiff’s complaints on this (or even comment), the lower courts of the
Fourth Circuit can defy this Court’s standards for pleading with apparent impunity, simply by
adding a self-serving statement contrary to the pleadings such as “there is no indication that the
Gay Pride flag is associated with such animus” as in this case (Memorandum Opinion, Appendix
A, note 4). In fact, if the District Court had not ignored all of Plaintiff’s factual allegations to
make such a statement, its juxtaposed statement that an employer “could be liable for a hostile

37

work environment for posting a flag...associated with...animus based on...religion”
(Memorandum Opinion, Appendix A, note 4) is an admission by the District Court that it would
have had to find facial plausibility in Plaintiff’s claim concerning the Gay Pride flag. If a trial
court wants to corruptly influence a case, it should not be allowed to do so in the pleading stage.
The trial phase provides more judicial controls and appellate scrutiny to deter such misconduct
and if the Court is going to take a pass on redressing bias from the bench, it should not take a
pass when it involves the pleading stage.
62.

Without any action by the Court, the pleading stage seems to be ripe for abuse in

the Fourth Circuit where anything seems to be affirmed by the Appellate Court. Failure of this
Court to protect its pleading standard in the Fourth Circuit will deny many citizens other than
Plaintiff of a fair way to access the Federal courts and will set up a disparate system of justice
where citizens in the Fourth Circuit are denied Article III access to the courts by lower courts
following their own arbitraiy pleading standards while citizens in other parts of the country enjoy
the consistency and neutrality of this Court’s current standard for pleading. This raises the
specter of equal protection claims under the Fifth Amendment as well, as citizens in the Fourth
Circuit are treated differendy than elsewhere.17 If the Court is concerned with ensuring that all
complaints in the courts of this land are accorded review under the same pleading standard and
that this Court’s precedents are respected in all Circuits, the Court should grant Petitioner’s
request for Certiorari in order to address the errors in law in the District Court’s Rule 12(b)(6)
17 An arbitrary or no pleading standard in one Circuit strikes at the fundamental basis of due
process, the “basic principle that all people must stand on an equality before the bar of justice in
every American court” Chambers v. Florida, 309 U.S. 227, 241 (1940), and equal access to the
Federal courts where “they [all people] should have like access to the courts of the country for
the protection of their persons and property, the prevention and redress of wrongs” Yick Wb v.
Hopkins, 118 U.S. 356, 367 (1886). Under the Fifth Amendment, these fundamental principles
of equal access apply to actions in the Federal courts which defy this Court’s standards and serve
to expose citizens to arbitrary or capricious bars to the courts at the pleading stage by following
no clear pleading standard (see Weinberger v. Wiesenfeld, 420 U.S. 636, 638 n.2 (1975)).
38

... review..
63.

Petitioner has also shown that the District Court Opinion affirmed by the

Appellate Court establishes an interpretation of the reasonable person test for intolerability from
Suders and Green which does not properly address the problem presented by employers who
refuse to offer reasonable religious accommodation and force devout employees to choose
between their work and their faith. This action in the Fourth Circuit is creating a split in the
Courts of Appeals because other courts are applying the intolerability test more prudentially
when devout employees have been refused an accommodation. If the Court does not take any
action, this situation will deny persons in the Fourth Circuit who face religious discrimination the
benefit of the constructive discharge doctrine from Suders and Green. Devout employees in the
Fourth Circuit will be advised to continue working at a location where their religious beliefs
conflict with their employment requirements until they are terminated because no one in this
situation will have access to the constructive discharge doctrine as long as the District Court’s
decision in Plaintiff’s case is upheld. In the meantime, the split that this is causing between the
Circuits will just grow larger as more employees in other parts of the country who face religious
discrimination will be afforded their right to a constructive discharge. If the Court does not want
its precedents in Suders and Green to be applied differently in failure to accommodate cases
throughout the nation, the Court should take this opportunity to grant Petitioner a Writ for
Certiorari so that the Court can clarify how the Suders and Green constructive discharge
precedent should apply to devout employees whose employer refuses to offer them an
accommodation.
64.

Furthermore, Petitioner’s arguments have shown that the District Court’s

handling of the new matter submitted in Defendants’ REPLY has either failed to follow rules of
civil procedure for conversion to summary judgment or failed to provide procedural protections

39

to Plaintiff after converting to summary judgment. Either error is a violation of Plaintiff's due
process rights under the rules of civil procedure and the Fifth Amendment and the Court should
grant Certiorari to protect its precedents, Petitioner’s due process, and to enforce the accepted
and usual course of practice under these rules of civil procedure. Do due process rights of pro se
parties matter? Without action by the Court, the courts in the Fourth Circuit can continue to
apply the rules of civil procedure and deny due process without regard to this Court’s precedents.
65.

For the foregoing reasons, this Court should grant Certiorari and Petitioner

respectfully requests that the Court issue a Writ of Certiorari which allows this Court to consider
the questions presented and reversal of the dismissal of Plaintiff’s Complaint by the lower courts.
Furthermore, Petitioner is a pro se party and if the Court finds any defect in the form, style or
length of this instant Petition, Petitioner respectfully requests that the Court grant leave to
consider the instant Petition, as is, in the interests of justice and in order to achieve judicial
economy.

Dated:

)z,

Respectfully submitted,

By:-6

frames Tolle
Pro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970
j ptolle@verisystem .net

40 .

